 DOE/IG-0560




         AUDIT                THE DEPARTMENT OF ENERGY’S
                               TRITIUM EXTRACTION FACILITY
        REPORT




                                      JUNE 2002


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                  June 24, 2002


MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
                  ADMINISTRATION

FROM:                         Gregory H. Friedman (Signed)
                              Inspector General

SUBJECT:                      INFORMATION: Audit Report on "The Department of Energy's
                              Tritium Extraction Facility"

BACKGROUND

On March 19, 2002, you asked the Office of Inspector General to conduct an expedited review of
efforts to construct the Tritium Extraction Facility (TEF) at the Department of Energy's Savannah
River Site. Specifically, you expressed concerns about information you had received indicating
that the TEF may be over budget and behind schedule.

The Department is in the process of constructing the TEF at Savannah River as part of a process to
ensure that the United States has an adequate supply of tritium, a radioactive isotope of hydrogen
used in all of the Nation's nuclear weapons. When fully operational, the TEF will provide the
capability to extract gases containing tritium as part of the Commercial Light Water Reactor
Program. The current baseline for the project, established in 1999, provided that the TEF was to
be completed by February 2006 at a cost of $401 million, and that it was to produce 3 kilograms of
tritium per year. The National Nuclear Security Administration (NNSA) is responsible for the
overall management of the TEF Project and an integrated team of Westinghouse Savannah River
Company and Bechtel Savannah River, Inc. personnel carries out day-to-day construction
management activities.

Consistent with your request, the objective of our audit was to determine whether the TEF Project
was within cost, schedule, and technical scope.

RESULTS OF AUDIT

We found that the TEF will cost substantially more than the planned $401 million. Further, based
on current progress, it is unlikely that the facility will be completed by February 2006. In fact, key
project management officials have estimated that the total project cost could increase to as much
as $500 million, that the facility may not be completed until December 2006, and that, under
certain scenarios, it may not contain all elements of the original specifications. Completion of the
TEF within its baseline cost, schedule, and scope was in jeopardy because the project team had not
made full use of available project management controls. Specifically, it had not:
                                                   -2-


   •   completed project design before beginning construction;
   •   conducted make/buy analyses at key points;
   •   chosen a contract vehicle appropriate for the nature of the project;
   •   established adequate contingency funds;
   •   adequately updated project risk assessments and cost estimates to reflect changing
       conditions; and,
   •   included the TEF on its "Watch List" of projects requiring heightened scrutiny.

As a consequence, the TEF lacks a viable baseline and NNSA cannot be assured that the facility
will be available when needed or that project funds are being expended efficiently. Delays in
completion of the TEF Project also have the potential to impede performance of the Stockpile
Stewardship Program.

In recent months, management initiated reviews attempting to validate the Westinghouse team's
estimated overages and the potential savings of alternative strategies. In each instance, the
reviewers were unable to do so and cited a lack of adequate supporting documentation. Until this
condition is remedied, NNSA cannot be assured that the cost and schedule issues raised by the
project team are valid. At some point, the process will likely drive a request to Congress for
additional funds. Thus, reaching agreement on the path forward, and the costs associated with the
selected strategy, takes on great importance.

You also asked us to assess, during our review, the relative culpability of those responsible for the
current conditions. Available documentation, as well as interviews with key Federal and
contractor officials, disclosed that the decisions made and the strategies pursued were the product
of the collective judgments of the Federal and contractor project team leaders. As a consequence,
we concluded that accountability must be shared. We found that there was an especially close
working relationship between cognizant Federal and contractor officials. Although we could not
conclude that this relationship was a root cause for the conditions that exist, NNSA management,
as part of an overall path forward strategy, should nevertheless review the current management
structure in order to determine whether changes are warranted.

Our findings in regard to the TEF are consistent with those of a 1999 National Research Council
review of the Department's project management practices. That review highlighted many
recurring problems with the Department's approach to major projects. The Council noted, for
example, that (1) pre-construction planning was often inadequate and ineffective and (2) project
baselines were established too early in the design stage to be reliable. The Council report also
cited the tendency to establish contingencies that were unrealistically low because they did not
adequately take into account project risks. Additional Council findings also included ineffective
matching of project requirements and contracting methods.

Based on our audit we recommended a series of specific actions aimed at strengthening the TEF
Project. We also made recommendations that have broader applicability in your efforts to
enhance and revitalize the nuclear weapons program.
                                             -3-


MANAGEMENT REACTION

Your memorandum dated June 12, 2002, (see Appendix 1) indicated concurrence with our
recommendations. The Office of Inspector General appreciated the cooperation of NNSA staff
and senior management through this expedited review.

Attachments

cc: The Secretary
    Chief of Staff
    Under Secretary for Energy, Science and Environment
    Deputy Administrator for Defense Programs
    Manager, Savannah River Operations Office
    Director, Policy and Internal Control Management, NA-66
THE DEPARTMENT OF ENERGY'S TRITIUM EXTRACTION
FACILITY

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1
                Conclusions and Observations ........................................ 1


                Status of Tritium Extraction Facility


                Details of Finding ............................................................. 3
                Recommendations and Comments ................................. 9


                Appendices


                Management Comments ............................................... 11
                Scope and Methodology ................................................ 12
                Other Matters................................................................. 13
Overview
INTRODUCTION      On March 19, 2002, the Administrator of the National Nuclear Security
AND OBJECTIVE     Administration (NNSA) asked the Office of Inspector General to
                  review NNSA's efforts to construct the Tritium Extraction Facility
                  (TEF) at the Department of Energy's (Department) Savannah River
                  Site. Specifically, the Administrator expressed concerns about
                  information he had received indicating that the TEF may be over budget
                  and behind schedule.

                  Tritium is a radioactive isotope of hydrogen used in all of the Nation's
                  nuclear weapons. Without tritium, these nuclear weapons will not work
                  as designed. Tritium has not been produced for the United States
                  nuclear weapons stockpile since 1988. Radioactive decay also depletes
                  the available tritium by about 5.5 percent each year. Current stockpile
                  requirements are being met by recovering tritium from dismantled
                  nuclear weapons. However, the amount of tritium available may not be
                  adequate to meet long-term national security requirements. In order to
                  meet long-term tritium requirements, the TEF is being constructed at
                  Savannah River, as part of the Commercial Light Water Reactor
                  Program.

                  NNSA Headquarters is responsible for the overall management of the
                  TEF Project. The NNSA manager at Savannah River provides
                  infrastructure support to the project. The Manager, Savannah River
                  Operations Office provides health, safety, and technical support to the
                  project on an as needed basis. An integrated team of Westinghouse
                  Savannah River Company and Bechtel Savannah River, Inc.
                  (Westinghouse team) personnel carries out day-to-day construction
                  management activities.

                  The objective of the audit was to determine whether the TEF Project
                  was within cost, schedule, and technical scope.


CONCLUSIONS AND   Key project management officials have estimated that the total project
OBSERVATIONS      cost for the TEF could increase to as much as $500 million, and that the
                  facility may not be completed until December 2006. They had also
                  considered certain reductions in scope. In our judgment, NNSA had not
                  made full use of available project management controls. As a result,
                  management lacks assurance that the facility will be available when
                  needed or that project funds are being expended efficiently. Delays in
                  completion of the TEF Project also have the potential to impede
                  performance of the Stockpile Stewardship Program.




Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
         For many years, the Office of Inspector General has reported on project
         management weaknesses at the Department and NNSA. Since the early
         1990s, we have issued a series of reports critical of the planning,
         justification, and management of major projects. Based on our
         findings, we have reported to the Secretary that project management is
         one of the most significant management challenges the Department and
         NNSA face.

         The TEF Project has been the subject of numerous internal and external
         reviews since its inception in 1996. At least four of these reviews were
         completed in early 2002 after key TEF project management officials
         identified significant cost and schedule concerns in November 2001.
         Moreover, during our audit, we learned that an additional review effort
         had been initiated by NNSA. Specifically, it is our understanding that a
         senior Federal project management official will validate a new estimate
         at completion. Accordingly, a number of key "path forward" decisions
         will be made using the results of the additional review effort, slated for
         completion by the end of July 2002.

         Our audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                               _____(Signed)__________
                                               Office of Inspector General




Page 2                                         Conclusions and Observations
Status of Tritium Extraction Facility
TEF Cost, Schedule,   At the time of our review, project management officials from NNSA
and Technical Scope   and the Westinghouse team had concluded that the TEF was in jeopardy
                      of significantly overrunning its baseline cost, perhaps by nearly $100
                      million, or 25 percent. The first indications of cost concerns were
                      reported in March 2001, but it was not until November 2001 that the
                      extent of the problem was thought to be of major significance by the
                      Westinghouse team. By February 2002, achievement of the baseline
                      schedule was clearly in doubt, and alternative scenarios were developed
                      under which the TEF would not be capable of meeting its planned
                      mission of extracting tritium necessary for long term national security
                      requirements.

                                                Acquisition Strategy

                      The acquisition strategy for the TEF consists of two major phases. The
                      first phase included issuance, in 2000, of a competitive fixed-price
                      construction/structural/architectural subcontract for design and the
                      construction of two building shells. The second phase, scheduled to
                      begin in 2002, provides for construction and testing of the "rest of
                      plant." In January 2002, the Westinghouse team informed NNSA
                      management that, under the current strategy, project costs were likely to
                      approach $500 million and the schedule would be extended until at least
                      December 2006. Examples of contributing factors to actual or potential
                      cost overruns cited by the Westinghouse team included the following:

                         •   $17 million for modifications required to overcome various
                             unforeseen construction issues;

                         •   $12 million in unanticipated costs associated with the decision
                             to accelerate phase one design and construction;

                         •   $7 million for a furnace design that ultimately did not work;

                         •   $7 million for adjustments to wages and overhead costs;

                         •   $5 million for higher-than-expected costs for equipment; and,

                         •   $21 million in potential costs associated with extending the
                             schedule to December 2006.

                      As we will discuss later in this report, we are troubled by the fact that a
                      number of efforts to review and validate these numbers have been
                      unsuccessful due to perceived deficiencies in contractor documentation.



Page 3                                                                      Details of Finding
         NNSA managers had also concluded that the TEF would likely cost
         substantially more than the $401 million baseline estimate. A number
         of these officials acknowledged that the baseline had not been
         sufficiently adjusted to reflect costs associated with a Congressional
         hold on construction funds. Some officials believed that this may have
         added at least $30 million to total project costs. Management was also
         concerned about the subcontract bids for the phase two "rest of plant"
         portion of the TEF Project, as they were substantially higher than the
         amount originally estimated for this work.

                                   Alternative Strategies

         In light of the potential for significant cost overruns, the Westinghouse
         team proposed a new strategy, by which Westinghouse and Bechtel
         would self perform significant remaining work in-house, rather than
         perform the work via subcontract. Under this option, firm-fixed-price
         subcontracts would be issued for the fabrication of standard items, such
         as heating and air conditioning systems, fire protection, satellite
         buildings and structural steel. Westinghouse & Bechtel would self-
         perform higher risk fabrication items such as glove-box internals and
         piping equipment. The Westinghouse team estimated that this option
         would reduce the cost overrun from about $100 million to about $80
         million and extend the project completion date from February 2006 to
         October 2006.

         A variation of this strategy would further decrease the potential cost
         overrun but possibly extend the project completion date to July 2007
         and reduce scope. This option included the elimination of the waste
         storage building, storage module, robotic platform, and installation of
         the second furnace. These scope reductions would, according to the
         Westinghouse team, make it unlikely that the TEF could produce the
         planned 3 kilograms of tritium per year. As of April 2002, NNSA
         management had approved this alternative in principle; however, no
         final decision on approach had been made.

         We did not attempt to validate the Westinghouse team's proposed
         alternatives and, accordingly, take no position as to which, if either,
         represents a prudent approach to project completion. Based on a
         limited review of some of the associated estimates, however, we
         concluded that, at least in one instance, an alternative merely shifted
         costs from one category to another and did not actually reduce the
         amount of funds required.



Page 4                                                        Details of Finding
                        We were also aware that in recent months management initiated
                        reviews attempting to validate the Westinghouse team's estimated
                        overages and the potential savings of the proposed alternative
                        strategies. In each instance, the reviewers have been unable to do so
                        and have cited a lack of supporting documentation by the
                        Westinghouse team. Until this condition is remedied, the NNSA
                        cannot be assured that the cost and schedule concerns expressed by
                        the Westinghouse team are valid and are as substantial as asserted. In
                        this vein, NNSA instructed the Westinghouse team to complete the
                        necessary documentation and planned, yet again, to attempt to
                        validate the estimate by the end of July 2002.

Stockpile Stewardship   The Department's (unclassified) Stockpile Stewardship Plan (Plan)
Plan and Project        establishes the mission requirement for tritium and delineates the
Execution Plan          approach to meeting the Nation's tritium needs via the TEF. The Plan
                        specifies that the expected need for tritium will be about 2.5
                        kilograms per year and that, if the TEF is complete and operational
                        by 2006, mission requirements will be met.

                        Department requirements specify that a Project Execution Plan
                        should be prepared to define the specific requirements that form the
                        project baseline. The TEF Project Execution Plan was established in
                        June 1997 and specified that a facility capable of producing about 3
                        kilograms of tritium per year would be constructed for a total project
                        cost of $384 million, with operations starting in May 2005. In 1999,
                        the completion date was extended to February 2006, and in March
                        2001, the total project cost was increased to $401 million.

Project Management      Federal and contractor project team members indicated that a number
Controls                of factors contributed to cost and schedule overruns, many of which
                        were beyond the project team's control. Among these were changes
                        in the regulatory environment, especially with respect to safety,
                        security, and transportation. While we recognize the potential impact
                        of these factors, we concluded that the TEF baseline cost, schedule,
                        and scope was in jeopardy primarily because the NNSA had not made
                        full use of available project management controls. We noted, in
                        particular, that it had not completed project design before beginning
                        construction or conducted make/buy analyses at key points. In
                        addition, the federal and contractor project team leadership chose a
                        contract vehicle that may not have been appropriate for the nature of
                        the project. Other contributing factors included an inadequate
                        contingency fund, risk assessments and cost estimates that were not
                        adequately updated to reflect changing conditions, and failing to list
                        the TEF on the "Watch List" of projects requiring heightened
                        scrutiny.

 Page 5                                                                     Details of Finding
                                     Project Design

         As originally conceived, the final design of the TEF was to be
         completed and reviewed before construction of the facility was to
         begin. However, in 1999, following a one-year hold on project
         construction funds, the Department and the Westinghouse team
         attempted to make up for lost time by adopting a two-phased
         simultaneous "design-build" approach to the acquisition strategy. As
         a consequence, the subcontractor was allowed to begin construction
         before final design was complete. According to project team
         managers, as well as other project reviewers with whom we spoke,
         this resulted in adverse effects on the project's cost and schedule due
         to numerous design changes. The Westinghouse team estimates that
         at least $12 million in project overruns can be directly attributed to
         the revised approach.

                                  Make/Buy Analyses

         The Department's acquisition regulation requires that outsourcing
         opportunities be evaluated to determine whether they should be
         performed by the management and operating contractor in-house
         (make) or outsourced (buy). This requirement is also included in the
         contract with Westinghouse. Nevertheless, key acquisition points in
         the TEF Project were not supported by formal make/buy analyses.
         This included the initial strategy of using a single subcontractor to
         complete the project, as well as the subsequent decision to change the
         acquisition so that some work would be performed in-house and the
         rest via subcontract. These decisions were based on discussions of
         expediency and cost-effectiveness, and reliance on cost data that was
         available at the time. In essence, the project team made assumptions
         that a given acquisition strategy would save time and money, but did
         not perform a formal make or buy analysis.

                                     Contract Type

         Acquisition principles suggest that for a well-defined scope of work
         with relatively few unknowns, a firm-fixed-price contract may be a
         prudent acquisition vehicle in that the contractor assumes a relatively
         greater share of financial risk. The choice of a firm-fixed-price
         contract can become problematic, however, when the scope of work
         is less well defined. In such a scenario, unanticipated changes not
         explicitly defined in the original contract can drive up total costs.
         This appears to have been the case with the TEF Project, which has



Page 6                                                        Detail of Finding
         included many changes and modifications to date. At least one
         Westinghouse official also suggested that the unexpectedly high bids
         for phase two of the project arose, at least in part, because of bidders'
         perceptions that the TEF Project is still subject to many technical
         uncertainties at the same time that firm-fixed-price contracts are
         being employed.

                                   Contingency Funds

         Contingency funds are established to cover costs that may result from
         incomplete design, unforeseen circumstances, or uncertainties within
         defined project scope. Departmental guidelines state that for
         facilities that include complex design and equipment, contingency
         should be established in the range of 20 to 30 percent of costs to be
         incurred. While a contingency fund does not, by itself, keep costs
         down, it can serve as a key control to help management to protect the
         integrity of the overall cost baseline while still responding to
         unexpected events. Moreover, a closely monitored contingency
         serves as an early warning system to project managers if the use of
         contingency funds exceeds expectations. For the TEF, contingency
         was established at about $65 million, or 16 percent of the expected
         total project costs.

         As of November 2001, the entire $65 million had been allocated to
         cover such events as unforeseen construction issues, the furnace
         design that did not work, and the higher-than-expected costs for
         equipment. Two key Federal project officials also indicated that an
         artificially low contingency was another consequence of a
         management imperative to keep total project costs at about $400
         million.

                       Updated Estimates and Risk Assessments

         Indeed, Department and contractor officials also advised us that
         senior management direction focused on total project costs rather
         than project requirements. They reported that then senior Department
         leadership directed, at least informally, that the TEF's total project
         cost not exceed $400 million. As a consequence, a number of project
         managers felt constrained by this cost ceiling and did not update risk
         assessments and project estimates to adequately reflect changing
         conditions. In our opinion, this is unacceptable. To the extent that
         responsible project officials believed that senior management
         direction was inconsistent with sound project practices, these officials
         had a duty to raise these concerns at that time.


Page 7                                                           Detail of Finding
         Although the Department increased the total project costs by $12
         million to compensate for the effects of the funding delay, two Federal
         project managers told us that the true costs of the delay were probably
         at least $30 million. These officials acknowledged that they should
         have been more assertive in highlighting the cost and schedule risks
         associated with this major change in circumstances. Instead, project
         officials tried to absorb the schedule slip and cost escalation, in order to
         keep the costs below $400 million.

         We also noted that the contractor did not perform an estimate at
         completion1 on an annual basis. Although Federal and contractor
         procedures did not specifically require an estimate at completion to be
         prepared annually, according to the American National Standards
         Institute, this is an industry best practice for construction projects. A
         key contractor official also stated that frequently prepared estimates at
         completion help to capture issues and problems that may not be
         identified elsewhere. We noted that in February 2002, Westinghouse
         amended its Project Controls Manual to require preparation of an
         annual estimate at completion when the project exceeds $4 million. A
         project management official also told us that Westinghouse intends to
         include an updated estimate at completion in each of its monthly status
         reports for the remainder of the TEF Project.

         Although the Department sent independent cost estimating teams to
         review the TEF in 1997, 1998, and 1999, a senior Department project
         management official told us that there are a number of problems with
         the independent cost estimating teams as currently configured. First,
         the reviews typically last only 1 to 2 weeks, which may not be enough
         time, in all cases, to thoroughly review estimates. Also, review teams
         do not generally perform their own "bottoms up" review, but rather
         validate a sample of the documentation used by the contractor to
         develop the estimates. This official cited the need for a comprehensive
         approach to cost validation on the TEF Project.

                                             "Watch List"

         Federal and contractor project management officials told us that senior
         Department managers did not attend a number of quarterly status
         briefings on the TEF held for their benefit. Our review also disclosed
         that the TEF Project was not included on the Department's "Watch List"


         1
          An estimate at completion is defined as the actual cost incurred to date (including
         accruals) plus the estimated cost for completing the work.

Page 8                                                                   Detail of Finding
                    of projects requiring heightened scrutiny. Despite information
                    available to management in November 2001 that qualified the TEF
                    for inclusion on the "Watch List," it was not included. While listing
                    the TEF on the "Watch List" at that late date would not likely have
                    prevented cost and schedule overruns, including it on the list now
                    may serve as an additional project management control to ensure
                    senior management attention.

TEF and Stockpile   Given the significant uncertainties facing the project and the absence
Stewardship         of a viable baseline for cost, schedule, and technical scope, NNSA
                    lacks assurance that the TEF will be available when needed and that
                    project funds are being expended efficiently. Delays in completion of
                    the TEF project also have the potential to impede performance of the
                    Stockpile Stewardship Program.

                    As specified in the Stockpile Stewardship Plan (Plan), tritium is
                    needed by approximately 2006 to support the current requirements
                    for the nuclear weapons stockpile. The Plan calls for new tritium in
                    inventory and a reliable production source for future needs. Because
                    the TEF is the only current option NNSA has for extracting and
                    processing new tritium, its timely completion is of critical
                    importance.

                    The Office of Inspector General previously identified the Stockpile
                    Stewardship Program as one of the top 10 management challenges
                    facing the Department and the NNSA. In our judgment, these
                    previously reported issues, taken together with the project
                    management concerns jeopardizing prompt completion of the TEF,
                    highlight the urgency with which NNSA must address overall
                    performance issues within the Stockpile Stewardship Program.


RECOMMENDATIONS     To ensure that NNSA's project management practices are improved
                    for future projects, we recommend that the Administrator, NNSA
                    review and amend NNSA policies and procedures to require that
                    project managers:

                      1. Complete final design before awarding construction contracts,
                         particularly firm-fixed-price contracts involving first-of-a-kind
                         nuclear facilities.

                      2. Ensure project direction promotes the creation of an
                         appropriate balance between cost control and mission essential
                         project requirements.


 Page 9                                            Recommendations and Comments
             3.   Update risk assessments and estimates at completion at least
                  annually throughout the life of the project.

             4.   Implement a more comprehensive approach to independent cost
                  estimating.

          To facilitate prompt and effective completion of the TEF, we
          recommend that the Administrator, NNSA:

             5.   Insist that the Westinghouse team produce, by no later than
                  July 2002, sufficient supporting documentation for its current
                  estimates for projected overruns and for the cost and schedule
                  of alternative approaches to project completion.

             6.   Prepare a revised project baseline including cost, schedule, and
                  technical scope.

             7.   Ensure that all future acquisition approaches to the TEF are
                  supported by properly documented make/buy analyses.

             8.   Award firm-fixed-price subcontracts only for components of
                  the TEF Project known to involve low technical risks.

             9.   Re-evaluate the adequacy of available contingency funds and
                  adjust as necessary.

             10. Add the TEF Project to the "Watch List" and ensure that it
                 stays on the list until all issues are adequately resolved.




Page 10                                   Recommendations and Comments
Appendix 1




Page 11      Management Comments
 Appendix 2


SCOPE         The audit was performed from March 26, 2002, to April 30, 2002, at
              Department Headquarters and the Savannah River Operations Office.
              The scope of the audit included TEF project management activities
              from December 1995 through April 2002.


METHODOLOGY   To accomplish the audit objective, we:

                   • Reviewed results of prior audits and reviews;

                   • Identified the TEF Project technical scope, cost, and
                     scheduled milestones;

                   • Analyzed the status of the project and the contractors'
                     performance;

                   • Assessed the appropriateness of the contracting strategy;

                   • Discussed project management activities with Department
                     and contractor personnel; and,

                   • Reviewed Department regulations and contractor procedures
                     governing project management.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of TEF Project management activities.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not conduct a reliability assessment of
              computer-processed data because only a very limited amount of
              computer-processed data was used during the audit.

              In accordance with the Government Performance and Results Act of
              1993, the Department has established performance measures for its
              Management and Operating contractor, Westinghouse Savannah
              River Company, related to the Tritium Extraction Facility. The
              measures are related to completing construction activities and
              commencing startup testing.

              We held an exit conference with NNSA on May 7, 2002.

Page 12                                                    Scope and Methodology
Appendix 3

                                         OTHER MATTERS



As a result of some of the prior reviews, certain criticism has emerged with respect to the performance-
based incentives (PBIs). Specifically, some have observed that the existing incentives did not
adequately encourage the contractor to improve upon dated events. Additionally, in the event the
contractor missed a progress milestone, the contractor was allowed to "catch up" and ultimately receive
a reduced fee. Further, the Department was criticized for not structuring the PBIs to ensure that the
contractor shared the risk for potential cost overruns. Nevertheless, our review did not disclose that
the PBIs, as structured, were a root cause for the cost and schedule conditions that now exist. In any
event, as part of the Department's anticipated path forward strategy, it is our understanding that the
PBIs will be renegotiated as appropriate.




Page 13                                                                                   Other Matters
                                                                     Report No.: DOE/IG-0560


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
